<html>
<title> - SAVING FOR AN UNCERTAIN FUTURE: HOW THE ABLE ACT CAN HELP PEOPLE WITH DISABILITIES AND THEIR FAMILIES</title>
<body><pre>[Senate Hearing 113-598]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-598

                    SAVING FOR AN UNCERTAIN FUTURE:
                    HOW THE ABLE ACT CAN HELP PEOPLE
                  WITH DISABILITIES AND THEIR FAMILIES

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON TAXATION AND IRS OVERSIGHT

                                 of the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                                     
                                     

            Printed for the use of the Committee on Finance


                                    ______

                     U.S. GOVERNMENT PUBLISHING OFFICE 

93-772 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                 ______

               Subcommittee on Taxation and IRS Oversight

              ROBERT P. CASEY, Jr., Pennsylvania, Chairman

RON WYDEN, Oregon                    MICHAEL B. ENZI, Wyoming
CHARLES E. SCHUMER, New York         ORRIN G. HATCH, Utah
ROBERT MENENDEZ, New Jersey          MIKE CRAPO, Idaho
THOMAS R. CARPER, Delaware           PAT ROBERTS, Kansas
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
MICHAEL F. BENNET, Colorado          JOHN THUNE, South Dakota
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania

                                  (ii)



                            C O N T E N T S

                               __________

                           OPENING STATEMENTS

                                                                   Page
Casey, Hon. Robert P., Jr., a U.S. Senator from Pennsylvania, 
  chairman, Subcommittee on Taxation and IRS Oversight, Committee 
  on Finance.....................................................     1
Enzi, Hon. Michael B., a U.S. Senator from Wyoming...............     3
Burr, Hon. Richard, a U.S. Senator from North Carolina...........     5

                         CONGRESSIONAL WITNESS

McMorris Rodgers, Hon. Cathy, Member, U.S. House of 
  Representatives, Spokane, WA...................................     9

                               WITNESSES

Wolff, Sara C., self-advocate and board member, National Down 
  Syndrome Society, Moscow, PA...................................     7
D'Amelio, Robert, volunteer advocate, Autism Speaks, Charlotte, 
  NC.............................................................    11
Phillips, Chase Alston, financial advisor, Alexandria, VA........    12

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Burr, Hon. Richard:
    Opening statement............................................     5
Casey, Hon. Robert P., Jr.:
    Opening statement............................................     1
    Prepared statement...........................................    21
D'Amelio, Robert:
    Testimony....................................................    11
    Prepared statement...........................................    23
Enzi, Hon. Michael B.:
    Opening statement............................................     3
    Prepared statement...........................................    25
McMorris Rodgers, Hon. Cathy:
    Testimony....................................................     9
    Prepared statement...........................................    28
Phillips, Chase Alston:
    Testimony....................................................    12
    Prepared statement...........................................    30
Warner, Hon. Mark R.:
    Prepared statement...........................................    32
Wolff, Sara C.:
    Testimony....................................................     7
    Prepared statement...........................................    33

                             Communication

Developmental Pathways...........................................    35

                                 (iii)

 
                    SAVING FOR AN UNCERTAIN FUTURE:

                    HOW THE ABLE ACT CAN HELP PEOPLE

                  WITH DISABILITIES AND THEIR FAMILIES

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                               U.S. Senate,
        Subcommittee on Taxation and IRS Oversight,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:08 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Robert P. Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Enzi, Thune, and Burr.
    Also present: Democratic Staff: Kara Getz, Senior Tax 
Counsel; Jocelyn Moore, Deputy Staff Director; and Tiffany 
Smith, Senior Tax Counsel.

OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., A U.S. SENATOR 
 FROM PENNSYLVANIA, CHAIRMAN, SUBCOMMITTEE ON TAXATION AND IRS 
                OVERSIGHT, COMMITTEE ON FINANCE

    Senator Casey. This hearing will come to order. I am 
grateful for everyone's presence here.
    This morning we convene the Finance Committee Subcommittee 
on Taxation and IRS Oversight to discuss an important topic: 
how we can help individuals with disabilities and their 
families save for the future.
    I would like to thank Chairman Wyden and Ranking Member 
Hatch for this opportunity to hold the hearing of our 
subcommittee. I want to thank our ranking member on the 
subcommittee, Senator Enzi from Wyoming, for joining me today. 
He will be here shortly.
    I really want to thank Senator Burr from North Carolina, a 
tireless, tireless advocate for this legislation, and I want to 
thank him for his efforts to create a more sound future for 
those living with disabilities through the ABLE Act. Senator, I 
do want to thank you for your work. I am grateful that we can 
work together on this.
    Right now the tax code provides incentives for Americans to 
save for important priorities such as retirement or college 
through tax-advantaged savings accounts. However, those with 
disabilities are not afforded the same opportunity to save for 
their future. In fact, many adults with disabilities cannot 
save money to cover costs related to their disability without 
becoming ineligible for various programs, like Social Security 
or Disability Insurance or Medicaid--whatever it is that 
provides a necessary lifeline to so many who are in need. This 
dynamic forces individuals with disabilities to rely upon their 
family or community, but this support is often not enough to 
cover their long-term needs.
    Take the experience of one of our witnesses today, Sara 
Wolff, from Lackawanna County, PA. We happen to live in the 
same county. I have known her for quite a while. But Sara is 
not only here to testify, she is also here to tell us about her 
life, a life where she is holding down not one, but two jobs, 
but she has to plan carefully to ensure that she never amasses 
more than $2,000 in assets or she will lose critical benefits.
    She should not have to make those kinds of plans. She 
should be given the freedom to make other plans for her future 
and not have to worry about making too much money in a 
particular time frame.
    This situation is, in a word, unacceptable in the United 
States of America, and Congress can and should help by doing 
something about it. The ABLE Act gives us that opportunity. 
Individuals with disabilities should be able to save for their 
future costs on an even playing field with other citizens 
across the country.
    The Act would fix this unfair dynamic by creating tax-free 
savings accounts for individuals with disabilities. 
Specifically, it would build on the popular section 529 college 
savings account program to allow families who have a loved one 
with a disability to similarly save tax-free for qualified 
disability expenses.
    Beneficiaries would be able to make tax-free withdrawals 
from their ABLE accounts to cover basic needs like education, 
housing, transportation, and health care. Benefits provided 
through private insurance, the Medicaid program, the 
beneficiary's employer, or other sources would be supplemented, 
not supplanted by the legislation.
    The ABLE Act is an affirmation that people with 
disabilities have great ability, great ability to live a life 
full of opportunity and lead a life full of achievement and 
success. Today's hearing will address the need for ABLE 
accounts from the perspective of individuals living with 
disabilities, advocates who are here with us today, lawmakers, 
and, as well, financial planners. And I left out families, and 
we certainly include them in that.
    Through the testimony of our witnesses, we will be able to 
highlight the challenges individuals and families face planning 
for the future and the benefits and drawbacks of current 
savings tools that are available, and, finally, how ABLE 
accounts can provide an additional tool for those who are in 
need.
    It is my hope that the record we build today will pave the 
way to passage of the ABLE Act, which enjoys wide bipartisan 
support in both houses of Congress. In the Senate, it has 75 
cosponsors, and in the House 366, and we are still counting 
both numbers. No other bill in Congress has this level of 
bipartisan and bicameral support. This level of support is a 
testament to the hard work of families and other disability 
advocates, many of whom are here with us today. If they are not 
here, we thank them from afar.
    This bipartisan support also reflects the importance of 
what the ABLE Act does for individuals with disabilities, as 
well as their families. We want all 535 members of Congress 
behind this important legislation. We need to build on our 
momentum in order to get the bill passed when we return from 
the August recess.
    So I want to thank everyone for being here.
    [The prepared statement of Senator Casey appears in the 
appendix.]
    Senator Casey. I now turn to our ranking member, Senator 
Enzi.

              STATEMENT OF HON. MICHAEL B. ENZI, 
                  A U.S. SENATOR FROM WYOMING

    Senator Enzi. Thank you, Mr. Chairman. Thank you for 
holding this hearing on Achieving a Better Life Experience, 
ABLE. We do these acronyms all the time, but this one is a very 
good one. ABLE--Achieving a Better Life Experience. I 
appreciate having this opportunity to take a closer look at how 
this legislation can help individuals with disabilities and 
their families live a more fulfilling and rewarding life and 
chart a more certain future.
    I am looking forward to the open discussion about the 
merits of this bill, and I feel very privileged to be sitting 
between the two authors of the bill. You have done a marvelous 
job on this bill. And I know that Senator Burr has probably 
been involved in more detailed bills than anybody whom I know 
of in the Senate and has an uncanny ability to work them 
through to completion in both the House and the Senate, relying 
on some of his friendships from his House days there. But he is 
willing to take on some incredibly difficult bills. I do not 
think this is the most difficult bill you have taken on, but it 
is the most impressive on cosponsors that I have seen. To have 
74 Senators signed onto a bill, that is more than bipartisan. 
That is outstanding around here, and it is a credit to both of 
you to have been able to do that. Good teamwork.
    Mr. Chairman, history has taught us that individuals with 
disabilities can flourish with the help of their families and a 
supportive community. Disabilities that were once thought to be 
disqualifying and limiting in terms of an individual's ability 
to express themselves are now seen as challenges that can be 
overcome. Today, those living with disabilities have shown they 
can contribute in meaningful ways to our culture, the arts, our 
business community, and society at large. The success and 
flourishing of individuals within our communities makes our 
society more inclusive and gives everyone an opportunity to 
thrive and pursue whatever path they choose to follow to their 
ultimate happiness and fulfillment.
    One of the bold statements made by our founding fathers as 
they worked together to create our Nation was their recognition 
of our inherent rights to life, liberty, and the pursuit of 
happiness. Few countries can boast of having been created with 
an eye toward that kind of freedom of expression. The 
legislation we are discussing today takes another step forward 
in the effort to make the promise of the Declaration of 
Independence ring true for all of us.
    Mr. Chairman, if we walked over to the Capitol Visitors 
Center, we would see several poignant illustrations of this. 
One of the most well-known and best-loved examples of what is 
possible for those living with disabilities to achieve is seen 
in the life of Helen Keller, one of the newer statues over 
there. She was the famed author and political activist of the 
early 20th century. She was deaf, blind, and mute as a result 
of an early childhood disease. I hope all of you will take the 
time to look at the profile of this great person and think 
about how this bill can affect others in a similar way.
    The ABLE Act would take a small step in helping disabled 
individuals support themselves, pursue their dreams, and put 
themselves in a place of greater financial security. It would 
allow them and their families to open tax-exempt accounts so 
that they can plan how best to use their own funds to cover 
living expenses.
    In our economy, many families are very familiar with the 
challenge of saving for the future and the needs of their 
children. A family with a disabled individual faces even more 
unique emotional and financial obstacles. The ABLE Act would 
help these families meet these challenges, whether it is paying 
for specialized care or a more individualized education, to 
maintain their health and their independence, or provide for a 
better quality of life.
    I have long been a supporter of enabling families and 
communities to meet the needs of the disabled. A few years ago, 
I introduced legislation to expand and revitalize the two main 
Federal employment and training programs for persons with 
significant disabilities, paving the way to create more and 
better jobs and restore accountability to prevent waste, fraud, 
and abuse.
    In my own State of Wyoming, Alees Rogers in Uinta County, 
WY has been helped by her community. She has a developmental 
disability, and, with assistance for housing and other care, 
she was able to take a job after graduating from high school at 
First Bank, where she does a marvelous job. She also lives 
independently in her own apartment. The ABLE Act could help her 
to accomplish even more as she continues to plan for her 
future.
    Wyoming has also developed an innovative college program 
called the Wyoming Institute for Disabilities, WIND, to help 
individuals with developmental disabilities, their families, 
professionals, and University of Wyoming students through 
education, training, community services, and early 
intervention. These types of services, combined with the ABLE 
Act, strengthen the opportunities for individuals with 
disabilities to grow, achieve, and succeed.
    I do not think there was ever a more well-known or better 
dreamer than Walt Disney. He knew a thing or two about how to 
make the impossible a reality. He once said, ``If you can dream 
it, you can live it.'' I thank Senators Casey and Burr for 
dreaming this, and all of the people who will be helped by it 
for being big dreamers. Let us help more of the disabled 
individuals and their families do exactly that. Let us work 
together with them to take their dreams from the drawing board 
to reality by offering the support they need to make them 
happen.
    While it is true that the initial discovery of an obstacle 
or a limitation can often be dispiriting or discouraging, when 
our families and communities circle around those facing such 
challenges, we can help them to rise above them and succeed 
beyond anything they could ever have imagined. The ABLE Act 
will help to make that happen by providing more financial 
stability so that we can all chase after our dreams and fulfill 
our founding fathers' promise of the pursuit of happiness. That 
is why this legislation has found overwhelming support--74 
members of the Senate, 366 members of the House.
    I welcome our witnesses today. I appreciate their taking 
the time to join us for this important discussion. I look 
forward to their testimony.
    Again, I am privileged to sit between the two people who 
came up with this bill. I thank you, Mr. Chairman, and would 
hope that we have time for Senator Burr to make a few comments.
    Senator Casey. Senator Enzi, thank you very much for your 
opening remarks. I am grateful for your work as well.
    [The prepared statement of Senator Enzi appears in the 
appendix.]
    Senator Casey. Senator Burr?

            OPENING STATEMENT OF HON. RICHARD BURR, 
               A U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Chairman Casey and Ranking Member Enzi, thank 
you for scheduling this hearing, and thank you for allowing me 
the opportunity for some time to speak.
    Let me say, Bob, you are a tremendous partner. We have done 
a number of things together, some easier than this, some that 
went a lot faster, but none more important than the legislation 
we are here to receive testimony on today.
    I want to particularly thank both of you, but also Cathy 
McMorris Rodgers, Ander Crenshaw, Chris Van Hollen, and Pete 
Sessions, partners on the other side of the Hill, who have 
shown unbelievable passion at resolving what I think is a 
common-sense legislative approach.
    When Mike Enzi talks about 74 cosponsors, I do not think it 
has ever happened since I have been here. But while we should 
be jubilant with the support, I sit here thinking, what is 
wrong with these other 26? [Laughter.] Where have we failed? 
Hopefully, today will be the culmination of, Bob, us getting 
the rest of them.
    I think it has already been said that the ABLE Act enjoys 
this unprecedented bipartisan support, with over three-quarters 
of Congress now putting their names on the bill as cosponsors, 
and we ought to vote on it today. Unfortunately, we cannot.
    It is hard for me to find a reason why anyone would want to 
get in the way of this bill, because it allows parents of 
disabled children the opportunity to save their own money for 
their child's future and to give that child a shot at financial 
independence.
    As a father, I know that a piece of the American dream--no, 
let me say, the American dream is a parent's ability to make 
sure that their children are taken care of, to make sure that 
they are self-sufficient, not just financially, but through 
what we teach them.
    I heard what Mike Enzi said about Helen Keller. Helen 
Keller was stopped by a reporter one day and the question was 
this: ``Can you think of anything worse in life than to lose 
your sight?'' And she paused for a moment, and she said, ``Yes. 
To have my sight and lose my vision.''
    Now, we might talk about this being a dream. This is a 
vision. It is a vision of parents of affected children. It is a 
vision of this country that we should empower every family to 
have the capabilities to take care of the next generation, and 
Helen Keller is a reminder that we cannot lose what the vision 
is of what we are trying to accomplish.
    So I hope, Mr. Chairman, that the ABLE Act does not get 
lost in the shuffle. It is unfortunate, but in Washington we 
spend most of our time arguing about issues that divide us. For 
Heaven's sake, let us pass a bill that we all support, that we 
all know is sound policy, and that we all believe will make a 
world of difference to families who are simply asking for the 
hope and the dream and the vision.
    We have been working together in good faith with all 
stakeholders, and I look around this room, and a few people 
have not been in the meetings to improve and perfect this bill 
for 8 years. If there is one thing we can be accused of, it is 
persistence. We have not gone away.
    So let us pass the ABLE Act, and let us do it now.
    Also, Mr. Chairman, I want to briefly welcome my fellow 
North Carolinian, Robert D'Amelio, to the hearing today. Robert 
lives in Charlotte, and he and his wife, Christi, are the proud 
parents of three beautiful children: Nicholas, 18; Christopher, 
15; and Lindsey, 10. He volunteers his time with the Boy Scouts 
of America and is a leader in the autism community in 
Charlotte, as two of his three children are affected by autism.
    Bob, I want to personally thank you and Christi for 
traveling to Washington to testify today about the challenges 
your family has faced and will continue to face as a family 
affected by autism. I know the hopes and fears we have for our 
children can be profound and intensely personal. So I admire 
your courage and the courage of all of our witnesses today in 
coming here to speak about your deepest hopes and fears 
publicly.
    It will help Congress better understand your unique 
challenges, and I truly believe that public policy in this area 
will be better because of your testimony, and my vision today 
is that it will help us to get those final 24 Senators signed 
on.
    I thank all of our witnesses. I thank you, Mr. Chairman. I 
yield the floor.
    Senator Casey. Senator Burr, thank you very much for your 
testimony and for your great work on this.
    These days, having folks work together across party lines 
and across the geography of this Capitol is all too rare, and I 
am grateful to have such great support in both places, and I am 
grateful to be working with Senator Burr.
    I will introduce our witnesses in the order that they are 
to appear, but I know that Congresswoman Cathy McMorris Rodgers 
will be here a little bit late, but I will give you kind of a 
brief biographical sketch of her, and, if she arrives, then we 
can have her testify first. Otherwise, I will turn to Sara 
Wolff and go in that order.
    Representative Cathy McMorris Rodgers is the chair of the 
House Republican Conference, making her the fourth highest 
Republican and the highest-ranking female Republican in the 
United States House of Representatives.
    Cathy grew up on a family farm, worked at a small business, 
and was later elected to the Washington State House of 
Representatives in 1994, where she later served as the House 
Minority Leader in that chamber.
    She was elected to the U.S. House of Representatives in 
2004. And she and her husband have three children, the oldest 
of whom, Cole, was born in April of 2007 with Down syndrome. 
Congresswoman McMorris Rodgers is a leading disabilities 
advocate and the founder and co-chair of the Congressional Down 
Syndrome Caucus.
    So we will be welcoming her shortly. Of course, she has a 
much longer biography that I could read, but we are going to 
try to get to all of our introductions as we have them set 
forth.
    Next is Sara C. Wolff, someone I know well and, as I 
mentioned before, a fellow Lackawanna County resident. Sara is 
a self-
advocate and motivational speaker. She works, as I referred to 
earlier, two jobs, one at the Keystone Community Resources 
Office of Advocacy and the other job as a law clerk in a law 
firm that I know well, led by Attorney Todd O'Malley, someone I 
have known for years.
    Sara serves on the board of directors of the National Down 
Syndrome Society, the Arc of Northeastern Pennsylvania in 
Scranton, and the State board of Arc in Harrisburg, in our 
State capital.
    Sara is a leading advocate for the ABLE Act. That is what 
is called an understatement. And she recently authored a 
Change.org petition that got over a quarter of a million 
signatures. Not many of us can say that.
    After Sara, as Senator Burr noted, is his fellow North 
Carolinian, Robert D'Amelio from Charlotte, NC. He is serving 
as the director of data center operations for Fidelity 
Information Services, the largest financial services company in 
the United States.
    Bob is a father of three children and has been an advocate 
for people with autism for over 10 years, serving as the 
advocacy chair of Autism Speaks in North Carolina, co-chair for 
the Autism Speaks North Carolina Walk, and a board member of 
the Autism Speaks-Carolinas Chapter.
    Bob, we are grateful you are with us today to share your 
own story and grateful for your advocacy.
    Lastly, we have Chase Alston Phillips, a financial advisor 
from Arlington, VA, who has worked for Merrill Lynch since 
2008. Mr. Phillips specializes in the development and 
implementation of financial strategies for individuals and 
families living with disabilities and special needs, including 
multigenerational wealth management and family-related trusts.
    In addition to his work as a financial advisor, Mr. 
Phillips volunteers with Quality Trust for Individuals with 
Disabilities, a nonprofit disability advocacy organization.
    Chase, we are grateful you are here with us today.
    So, we want to thank you for being with us, all of our 
witnesses and the audience. Your full testimony will be entered 
into the record. We appreciate you observing and adhering to 
the time limit of 5 minutes. That will allow us to have ample 
time for questions.
    So, Sara, why don't we start with you?

  STATEMENT OF SARA C. WOLFF, SELF-ADVOCATE AND BOARD MEMBER, 
           NATIONAL DOWN SYNDROME SOCIETY, MOSCOW, PA

    Ms. Wolff. Good morning. My name is Sara Wolff. I am 31 
years old, from Moscow, PA, and I happen to have Down Syndrome. 
I am honored to be here today on behalf of the National Down 
Syndrome Society to testify before the subcommittee. I am 
excited to share my story today and discuss how the Achieving a 
Better Life Experience Act, best known as the ABLE Act, will 
dramatically change my life forever.
    This is not my first time to DC. I have traveled here 
countless times to advocate for the ABLE Act. Last year, I lost 
my mother and number-one fan, Connie, to a sudden, rapid 
illness. She was my strongest supporter and accompanied me all 
over this great country for speaking engagements and 
conferences. Together we have increased awareness and advocacy 
for people with Down Syndrome and other disabilities by sharing 
our stories. We traveled all over together to inspire others to 
make a difference.
    While I know my mother continues to watch over me from 
above, it is our memorable moments and life lessons that she 
taught me that inspire me to continue to do all that I can to 
pass the ABLE Act this year. You will hear me say this a lot in 
my desperate tone today--this year. My mom and I had many 
conversations about the ABLE Act. She said, ``Sara, we have to 
get this bill passed.'' She promised me she would be at the 
signing of this bill. I want to keep this promise alive for 
her, for me, and for the thousands of people with Down Syndrome 
and other disabilities.
    With my whole life ahead of me, I need an ABLE account to 
plan for my future now, and I am not alone. People with Down 
Syndrome and other conditions are outliving their parents. My 
dad, Dennis, sister, Jennifer, and brother, Randy, are here 
with me today. My family, like so many others, needs to rest 
assured that they can easily care for their children and adults 
with disabilities.
    This is the fair and right thing to do. Just because I have 
Down Syndrome, that should not hold me back from achieving my 
full potential in life. I can work a full-time job, be a 
productive member of society, and pay taxes. But because of 
these outdated laws, people like me are held back in life.
    Currently, I cannot have more than $2,000 in assets before 
my government aid is cut off. These days, $2,000 is not a lot 
of money, and the rising costs of housing, transportation, and 
medical assistance make it tough for me to save.
    Working two part-time jobs, my employers know I cannot earn 
more than $700 a month to maintain my government benefits. The 
ABLE Act would provide a way for Americans with disabilities to 
save for their futures and hold meaningful jobs. This year, I 
authored a Change.org petition calling for Congress to pass the 
ABLE Act. To date, it has over 260,000 signatures and counting.
    People beyond the disability community think that the ABLE 
Act is a good idea and a no-brainer. Even the New York Times, 
in a recent editorial, urged Congress to move the ABLE Act.
    We now have 74 cosponsors in the Senate, including Leaders 
Harry Reid and Mitch McConnell, and 366 cosponsors in the House 
on the ABLE Act. This is a historic number and shows the need 
and urgency to pass ABLE. That is 83 percent of the entire U.S. 
Congress. I am only 31 years old, but I cannot remember a time 
when that many members of Congress agreed that much.
    I want to reiterate that with the ABLE Act, we are not 
asking Congress to create a new program or give us a handout. 
We are asking for an opportunity to use savings tools that 
other Americans have access to today. Passing this landmark 
legislation will help people with disabilities realize and 
achieve their hopes, dreams, and aspirations.
    I want to thank our champions of this bill for their 
leadership, dedication, and making the ABLE Act a reality for 
me and others with disabilities.
    In closing, I want to thank Ranking Member Enzi for helping 
to call today's hearing and for his cosponsorship. I want to 
thank Senator Burr from North Carolina, our ABLE champion, for 
his commitment and leadership to the ABLE Act. I also want to 
thank Congresswoman McMorris Rodgers, a fellow panelist here 
today, and her colleagues, Congressmen Ander Crenshaw, Pete 
Sessions, and Chris Van Hollen.
    A big special thanks to my hometown Senator Casey and dear 
friend for calling today's hearing and all he has done for me 
and all people with disabilities. You made the ABLE Act happen, 
and I am so excited and look forward to joining both Senator 
Casey and Senator Burr with President Obama at the White House 
when he signs this bill into law this year.
    Thank you.
    Senator Casey. Sara, thank you very much. We are grateful 
for that statement.
    [The prepared statement of Ms. Wolff appears in the 
appendix.]
    Senator Casey. We are joined by Congresswoman Cathy 
McMorris Rodgers.
    Sara, just as you were starting, she walked in the door. So 
that is good timing.
    Representative McMorris Rodgers. I got to hear it all. 
Excellent. Excellent.
    Senator Casey. But we are grateful that the Congresswoman 
is here, with such a busy schedule as both a Representative and 
also in leadership. Most of us around here only have one set of 
responsibilities. She has two major responsibilities while she 
is here and, of course, as a wife and mother.
    So we are grateful you are with us, and you get at least as 
much time as Sara did.

           STATEMENT OF HON. CATHY McMORRIS RODGERS, 
       MEMBER, U.S. HOUSE OF REPRESENTATIVES, SPOKANE, WA

    Representative McMorris Rodgers. Well, just a big, big 
thank you, Senator Casey, for the invitation to be here, for 
your leadership, for holding this hearing. And thank you to 
Ranking Member Enzi and all the Senators and my fellow 
panelists, a packed-out room. Millions of people all across 
this country are grateful for you holding this hearing today, 
drawing the attention on the ABLE Act.
    It certainly is very important legislation to ensure that 
those who have disabilities have the opportunity for a better 
life that can come to them through basically a 529 account that 
would be set aside. We call it ABLE--Achieving a Better Life 
Experience.
    We have, as Sara mentioned, 74 Senators now who have 
cosponsored the legislation--tremendous bipartisan support--and 
366 House sponsors. We rarely see this kind of overwhelming 
bipartisan support for an issue, and this is the year--I want 
to join in saying--this is the year we are going to get it on 
the President's desk.
    But this legislation is not about Senators and 
Representatives achieving legislative success. It is about 
people like Sara, it is about people like my son Cole--who was 
also born with an extra 21st chromosome--people who need 
financial security and peace of mind, people who deserve an 
opportunity for greater independence that sometimes our current 
laws limit.
    Right now, individuals with disabilities and their families 
spend countless hours worrying about their financial security. 
How are we going to pay for medical care that is not covered by 
the health care plan? How do we make it work to get much-needed 
job skills, training, and still pay the bills at the end of the 
month? Questions like these generate unnecessary worry and 
concern, because, too often, individuals and families have to 
pick and choose what care and services they can afford.
    Our outdated laws encourage men and women with disabilities 
to resign themselves to a life of dependency by spending down 
their assets rather than saving them for future expenses. 
Unless families have the resources to hire an attorney to 
create a special trust or some other complicated savings 
vehicle, there is no other option to establish financial 
security without risking access to critical government programs 
for individuals with disabilities. I just do not think that is 
right.
    As Americans, we believe in empowering all people 
regardless of where you come from or who you are. Policies like 
the ABLE Act will bring this very important empowerment to 
millions of Americans, transforming them from a state of 
dependence into one of independence.
    For me, the ABLE Act is much more than just a piece of 
legislation that will help so many. It is also personal. When 
my son Cole was born, my husband and I were presented with many 
of the similar joys and fears that all families experience, and 
I want nothing more for him than for him to be able to reach 
his full potential, live his life to the fullest, and I am 
concerned that I see Federal policies that potentially place 
limits on his opportunities.
    The ABLE Act will change that. It will help make sure that 
Sara and Cole and millions like them who have special needs 
will be able to save for their futures and reach their full 
potential. With overwhelming support from the House, the 
Senate, and the American public, it is time now to get the ABLE 
Act across the finish line, and I am proud to stand with all of 
you to advance this critical legislation.
    Thank you again for your time, your commitment, and your 
leadership on this important issue.
    Senator Casey. Congresswoman, thank you very much for your 
presence here today, your testimony, and your personal witness 
on this issue.
    We know that you have a busy schedule, so you are welcome 
to stay as long as you want, and we will have testimony from 
two more witnesses and then questions. But we are grateful for 
your leadership on this for such a long time, and we are 
obviously grateful you are with us this morning.
    [The prepared statement of Representative McMorris Rodgers 
appears in the appendix.]
    Representative McMorris Rodgers. Thank you very much. 
Thanks for having me.
    Senator Casey. Thank you.
    Bob, do you want to go next? Thank you very much for being 
here.

                 STATEMENT OF ROBERT D'AMELIO, 
        VOLUNTEER ADVOCATE, AUTISM SPEAKS, CHARLOTTE, NC

    Mr. D'Amelio. Chairman Casey, Ranking Member Enzi, Senator 
Burr, and members of the subcommittee, thank you for the 
opportunity to speak to you on behalf of Autism Speaks, the 
world's largest science and advocacy organization, and for the 
ABLE Act. My name is Bob D'Amelio, and I am a father of three 
children: Nicholas, Christopher, and Lindsey. My wife Christi 
is here with me today.
    My story is about a small, middle-class family in 
Charlotte, from the great State of North Carolina. I am a data 
center manager for FIS, and my wife, Christi, is a realtor. We 
have lived in North Carolina now for 17 years, and we have had 
some of our happiest and saddest moments in that State. Like 
many families across the country, our family is an autism 
family. Both of my sons are affected. Christopher is more 
severely affected than his brother Nicholas.
    I have been advocating for better autism services since 
2001. I am a volunteer vice-chair of the Autism Speaks chapter 
in Charlotte and have chaired the Walk Now for Autism Speaks in 
Charlotte six times. This year's walk will be held at the zMAX 
Dragway on Saturday, September 27th, and we expect 8,000 people 
to be present. That number of people should not be a surprise 
to anyone, that turnout. According to the Centers for Disease 
Control, in North Carolina, one in 58 children has autism, and 
one in 35 boys in North Carolina has autism spectrum disorder.
    These numbers are higher than the national average. 
Children like Nicholas and Christopher live in Charlotte, 
elsewhere in North Carolina, and in towns and cities and States 
across the country. These children need access to proven 
behavioral therapies and good school programs. Many need 
medications to manage their disabling symptoms.
    None of this comes cheap. According to the research funded 
by Autism Speaks, the lifetime cost of care for an individual 
with autism averages $2.4 million when the autism involves 
intellectual disabilities and $1.4 million when it does not.
    Families who have children on the spectrum need to be able 
to save for their future. This is where the ABLE Act would 
help. The ABLE account would enable families like mine to save 
for housing, job support, education, and other services, 
without fear of losing Social Security or Medicaid benefits. 
The current 529 plans fall short for many individuals with 
autism and other disabilities who cannot choose to go to 
college.
    As much as anything else, the ABLE Act is about fairness. 
If Christi and I can use a college savings account to provide 
for our daughter Lindsey's future, why can we not use something 
similar to take care of Nicholas and Christopher? I would love 
to sleep at night knowing that I am doing everything I could to 
secure the future for my children.
    My son Christopher is a very smart young man, but he will 
need a job coach and, at some point, a residential program. 
Saddling my daughter Lindsey with a big financial burden is not 
fair when Christi and I can provide for Christopher. Lindsey is 
already mature beyond her 10 years. She knows she will be 
looking after Christopher and keeping tabs on her brother 
Nicholas for the rest of her life.
    Autism teaches you to be strong, to persevere when others 
tell you to give up, to celebrate the small steps in life, and 
to appreciate what you have. Autism demands your time and 
energy and changes you as you live with the family.
    Parents like Christi and I want to do everything we can for 
our kids, for all our kids, disabled or not. The ABLE Act would 
allow families to make the future more secure for children with 
disabilities, taking the burden off siblings, other family 
members, and the government.
    Please take this simple step of passing the ABLE bill. We 
will all sleep better for it.
    Thank you.
    Senator Casey. Thank you so much for your testimony, 
especially for bringing both your own witness as well as your 
own advocacy to this issue. We are grateful.
    [The prepared statement of Mr. D'Amelio appears in the 
appendix.]
    Senator Casey. I have been using first names, so, Chase, I 
will just ask you to testify next. Sara, Bob, and Chase.

              STATEMENT OF CHASE ALSTON PHILLIPS, 
               FINANCIAL ADVISOR, ALEXANDRIA, VA

    Mr. Phillips. Good morning. It is a pleasure to be here 
today and to testify before the Senate Finance Subcommittee on 
Taxation and IRS Oversight. I am testifying today on behalf of 
the National Down Syndrome Society in this effort to pass the 
Achieving a Better Life Experience Act, better known as the 
ABLE Act.
    This piece of legislation will afford millions of 
individuals with disabilities the opportunity to experience the 
American dream and to achieve the highest reaches of success 
that this country has to offer, opportunities that should be 
rightly available to all of its citizens.
    My name is Chase Phillips, and I have lived with a 
neurological birth defect, Spina Bifida, for all 29 years of my 
life. As a disabled individual, I have been fortunate to 
partake in many of the same life events as my able-bodied 
peers.
    My determination to thrive has led me to excel in many 
areas of my life despite my limitations. I was a coxswain on 
the United States National Rowing Team because I had the 
competitive hunger to represent my country and compete at the 
highest level that my sport had to offer.
    I earned a bachelor of arts degree and graduated from the 
University of Wisconsin. Being able to go away to school 
enabled me to learn the life lessons that are unique to living 
on one's own while attending college.
    I chose a profession in finance that is very competitive 
and extremely challenging because I wanted to build a 
successful business and help people along the way.
    I married a wonderful woman because I wanted to experience 
the joy of connecting with a lifelong partner and starting a 
family.
    I volunteer with many disability nonprofits around the area 
because I have the desire to connect with individuals who are 
not much different from me--all of this while living with a 
disability that has had its challenges.
    My story is not unlike that of many other disabled 
Americans. However, stories of success are the exception, not 
the norm. There are many people living with disabilities who 
struggle to live independently, who desire to hold well-paying 
jobs so they can support themselves. Under the current system, 
these individuals will survive, but few are able to truly 
thrive.
    I am in a unique position because my personal experience 
living with a disability has intersected with my professional 
expertise as a special needs financial advisor. I currently run 
a practice at Merrill Lynch that specializes in developing and 
implementing financial strategies focused on improving the 
financial well-being of individuals living with special needs.
    In total, the four advisors within our practice have over 8 
decades of combined experience dealing with persons with 
disabilities. Three of our team members have disabilities 
themselves or have a family member living with a disability. We 
are fighting on the front lines of this battle both personally 
and professionally.
    On a daily basis, we see the challenges that families and 
individuals face as they strive to provide for themselves and 
their loved ones. Many of our clients are currently enrolled in 
Supplemental Security Income and Medicaid programs and thus 
must live within the program's $2,000 asset ceiling in order to 
remain program-
eligible.
    These are people who seek to learn independent living 
skills so that they can hold a job and contribute to society. 
But because of these asset restrictions, many individuals will 
never live on their own.
    For example, with these program restrictions, many people 
would not be able to save enough money for the first and last 
month's rent on a new apartment. This rule also limits the 
abilities for individuals to save for the down payment required 
to purchase a home. As a financial advisor, we recommend that 
our clients keep 3 to 6 months' worth of expenses in cash 
reserves in preparation for life's unexpected turns. This kind 
of planning becomes impossible with a $2,000 asset ceiling.
    Asset restrictions chain individuals to levels of poverty 
and provide no real incentive for them to hold higher-paying 
jobs. Currently, over 70 percent of adults living with 
disabilities are living at home with their parents or 
caretakers. Four in 10 individuals aged 21 to 64 with a 
disability are currently employed. That is a 41.1-percent 
employment rate as compared to 8 in 10 adults living without 
disabilities who are employed.
    There are tools currently available to help those with 
disabilities preserve their benefits while keeping assets held 
in trust for their benefit. By using a properly drafted and 
administered special needs trust, the disabled individual will 
continue to qualify for means-tested programs such as SSI and 
Medicaid. However, the special needs trust may not distribute 
money to pay for basic items such as food and shelter or other 
goods and services that the Social Security Administration 
categorizes as support and maintenance.
    As such, the beneficiary's SSI benefits may be reduced or 
eliminated if the trust pays for those basic needs. The theory 
is that, since SSI benefits are specifically intended to pay 
for a person's food and shelter, the more those goods and 
services can be funded by another source, the less SSI benefits 
are needed. To magnify this issue, disabled individuals are not 
permitted to save in other tax-advantaged saving vehicles such 
as 529 accounts and Roth IRAs because these assets are counted 
as part of the $2,000 asset ceiling as per SSI guidelines.
    In essence, Warren Buffett can gift $14,000 per year into a 
529 college savings account and receive the benefits of those 
assets growing free of taxes, assuming they are used for 
qualified education expenses. Yet, a disabled American 
receiving SSI is not afforded this right and thus is not only 
denied the right to utilize such a tax vehicle, but is 
essentially unable to save for their own retirement and 
education. If this is not considered discrimination, I do not 
know what is. It is not only unfair, it makes no sense.
    The ABLE Act will allow individuals with disabilities to 
save money in a tax-sheltered savings account in order to pay 
for qualified expenses such as education, housing, 
transportation, employment support, and assistive technology. 
These assets would not be counted against the disabled 
individual for purposes of qualifying for SSI, Medicaid, and 
other means-tested programs. This account will serve as a self-
sufficient booster for disabled individuals to live 
independently, go to college, get married, and start a family.
    No longer would an individual have to decline a higher-
paying salary for fear that their assets would eclipse the 
$2,000 limit. The ABLE account is not designed to replace SSI, 
Medicaid, or the special needs trust, but rather to supplement 
these current programs, thereby enabling individuals with 
disabilities to reasonably plan for the future.
    The ABLE account will be more transactional and also easier 
to administer for day-to-day spending needs. This account 
serves as the perfect complement to a special needs trust 
because it fills the gap between the short-term funding needs 
covered by SSI and the longer-term investments held within a 
special needs trust.
    This piece of legislation is 8 years in the making. Let us 
make it happen this year.
    Thank you.
    Senator Casey. Thanks very much, Chase. Thanks for bringing 
your professional expertise to this as well.
    [The prepared statement of Mr. Phillips appears in the 
appendix.]
    Senator Casey. I just have one question for Sara, because 
we are running close to the time we have a vote. I want to let 
my colleagues ask at least one question, if not more.
    Sara, I wanted to ask you about this: you have two jobs you 
are working and this, I guess I would call it imperative, 
because of the way the rules work now, that you can only set 
aside a certain number of dollars, can you talk about that and 
how your life would change if ABLE passes and you do not have 
to have that kind of special arrangement about how much you can 
save at one time?
    Ms. Wolff. Well, I work 3 days a week at O'Malley and 
Langan and 1 day a week at Keystone, but I work with my 
employers to ensure that I do not earn more than $700 a month 
to avoid losing critical benefits.
    Senator Casey. That arrangement does not make a lot of 
sense when you could be doing a lot more than that. You could 
be setting aside a lot more money for your future, and that is 
one of the basic reasons why we want to pass the Act.
    I think, for the record, it is important for me to say that 
your petition now has more than 250,000 signatures. You are at 
260,000. I should have known that it would be higher than any 
number I pointed to.
    Senator Enzi?
    Senator Enzi. Thank you, Mr. Chairman. I will just ask one 
question as well and then submit some in writing for them to 
answer, because this is some great opportunity for us to get 
additional information.
    I would ask a question of Mr. Phillips, because you 
obviously work with financial advising. One of the concerns 
that we hear from people who might qualify is that, if they do 
this ABLE account, they might not qualify for the Supplemental 
Security Income, the SSI, and for Medicaid.
    Are there boundaries that parents should be aware of with 
these accounts? What would disqualify a disabled individual 
with these accounts? Are there any restrictions?
    Mr. Phillips. The ABLE account would not disqualify 
families from becoming eligible for SSI and Medicaid. It is 
intended to put money away so that those assets will not be 
held against them for purposes of qualifying for those 
benefits.
    Regarding limitations that families should know about, a 
big one is, with the ABLE account, there is a $100,000 cap, but 
only for purposes of qualifying for Supplemental Security 
Income. So if the ABLE account eclipses the $100,000 mark, the 
Supplemental Security Income would be put in suspension until 
the account came below the $100,000 limit. That $100,000 cap 
would not influence Medicaid.
    The other thing that parents should know about is that, 
upon the death of the beneficiary, any money left over in the 
ABLE account would be subject to a Medicaid payback provision, 
again, if there is money left over.
    So those are two major caveats that families should be 
well-aware of, but I am hoping that this account will be a 
great first step for families, and this has just been a big 
part of why families do not plan and why they are overwhelmed.
    This ABLE account can be set up relatively easily. That is 
what is so exciting to me as a financial advisor, that families 
can finally start to take action.
    Senator Enzi. Thank you. Thank all of you for your 
testimony.
    The question that I hope you will give some thought to, to 
provide some written answers to me is, how are we going to 
notify people that this has happened once it has happened?
    So I will need some help on that. I will yield the balance 
of my time to Senator Burr, who has had a magnificent hand in 
doing this.
    Senator Casey. Thank you, Senator Enzi.
    Senator Burr?
    Senator Burr. Thank you, Mr. Chairman.
    Chase, let me just say I think you must have become a 
financial planner at about age 10, looking at you. [Laughter.] 
You know it well, and thank you for the expertise you bring to 
the families that are touched by your advice.
    Bob, let me just turn to you. What worries you and your 
wife the most about your boys' future?
    Mr. D'Amelio. There are lots of things that worry me. The 
biggest thing that keeps me up at night and thinking about it 
is planning for, especially, my son Christopher's future, him 
having to be a burden on my daughter Lindsey. Already at 10 
years old, she is mature beyond her time. I mean, at 10 years 
old, here is this young girl saying she does not want children 
because she is afraid of autism.
    So things like the ABLE Act can allow Christi and I to help 
lessen that burden later on, because, at some point, someone is 
going to have to look over him in the future, when Christi and 
I are no longer around, and it is probably going to be my 
daughter Lindsey.
    In an ABLE account, we can put money away to help her ease 
that burden. That is what keeps me awake at night and thinking, 
where will he be when I am 60, 70, 80, 90, or gone, what will 
he be doing? My goal for him is to be a taxpayer in this 
economy and have money in an ABLE account to help with job 
support or job coaching or training. I mean, I know it sounds 
simple, but my goal is for him to be a taxpayer.
    Senator Burr. I guess it would be appropriate to say women 
can handle a lot more than men can, and I am confident your 
daughter is going to be able to fill in wherever needed.
    Let me just ask you: if ABLE did not happen, what are you 
doing to plan, and what is the typical family trying to do?
    Mr. D'Amelio. Today we are putting money away in a 529 
account for Lindsey, talking to family members right now who 
may want to leave money for Christopher, telling them the rules 
and understanding that, and looking at the legal costs of 
sitting down with an attorney and forming a special needs trust 
to do that. But in a lot of families with autism, there is not 
a lot of disposable income out there to go and spend those 
attorney fees to get a special needs trust and all the care and 
feeding that trust will require.
    So it is very difficult for families, especially in the 
autism spectrum, in order to have the vehicle to save in.
    Senator Burr. If you do not mind, can I ask you to address 
a little more the financial challenges that your family and 
other families face?
    Mr. D'Amelio. With two boys on the spectrum, over the years 
we have racked up medical bills that I would hate to even count 
right now, Senator. We got to a point about 9 years ago, 8 
years ago, where my family felt we had to declare personal 
bankruptcy. I mean, the hardship on families of the cost of 
autism is tremendous.
    Therapies, like behavioral analysis--you are talking 
$60,000 a year for a 2-year-old child. We do not pay that for 
college at some colleges. So the costs are overwhelming, and 
there are many families, whether it is across North Carolina, 
Senator, or across this country, who are just drowning in it 
trying to take care of their children.
    Senator Burr. I know we have a vote that is going to happen 
any minute. Let me just say, if I can, Mr. Chairman, this is 
the norm, it is not the exception, and, if I had any wish, it 
would be that there was not a limit, that families could take 
care of the future of their children and their grandchildren in 
a fashion that relieved any fear that, when they leave this 
earth, they are financially going to be taken care of.
    Unfortunately, we all deal with the Congressional Budget 
Office, and it dictates, to some degree, what we are able to 
do, how we are able to do it, when we are able to do it, and--I 
can only say this as one member of the Senate--I hope in the 
near future we will look at how we transition that institution, 
as it has become, to change and to reflect reality a little 
more.
    I have said that the most difficult thing for a member of 
Congress is to see the human face behind every issue that we 
deal with. Sometimes it is easier than others.
    Let me commend all of you who are here and those who have 
fought this fight and are not here. What you have been able to 
do is, you have been able to show members of Congress the human 
face behind this issue. That is why there are 74 co-sponsors in 
the Senate, that is why there are 366 co-sponsors in the House, 
that is why this bill will pass overwhelmingly, because every 
member can associate with it a face, a family that is affected. 
And I think from what Bob and I have done we believe, Chase, 
this will have a positive impact on those lives, and I think 
that is why we are here.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    Senator Casey. Senator, thank you very much.
    I reiterate or incorporate by reference what Senator Burr 
said about what all of you have taught us about what stands 
behind bills and policy like this. So we are grateful for the 
families and grateful for the advocates who have made our 
momentum possible.
    I wanted to get a little bit into the detail of how this 
bill will help families, because we do have a vote, but we 
moved our questioning a little faster than I thought we would 
have, thank goodness. So we have a little extra time.
    As many of you know, in terms of what is covered by the 
bill--I am just reading from a list here, not a complete list, 
but here is what the funds in an ABLE account would cover.
    The following is not an exhaustive list, but allowable 
expenses include: education, housing, transportation, 
employment support, health prevention and wellness, and it goes 
on and on, because, when I say that this effort is an 
affirmation that people with a disability or people with 
disabilities, plural, have a lot of ability--they can go to 
work, they want to work, they want to maybe have an apartment 
or get on the bus or travel in some way to their work, they 
want to contribute and be part of the fabric of this country--
there is no reason why we should be holding them back because 
we have not gotten around to making a slight change in the tax 
code.
    So it really is that simple. But, Mr. Phillips, I wanted to 
ask you--this is technical, but it is helpful to have some 
additional guidance on this. Some people might say, well, this 
sounds like a good idea, but there are other vehicles out 
there, and I can find a good tax lawyer, a consultant, advisor, 
accountant, pick your expert, and they can design something 
very similar to this, and it does pretty much everything that 
ABLE accounts would do.
    Can you walk us through why that does not work? That is not 
to say that there are not some options, but why does that not 
work for folks who may not have access to those experts, number 
one, necessarily, but why does it not work and what is the 
mechanical or structural reason why we need to have ABLE 
accounts?
    I know it is by way of reiteration, but it is important.
    Mr. Phillips. Yes. So there are special needs trusts that 
are available--first-party special needs trusts, third-party 
special needs trusts, pool special needs trusts--and they are 
excellent vehicles, and they all have their place to supplement 
the ABLE account.
    But what the ABLE account offers is tax efficiency, to be 
able to make a contribution into the 529 ABLE Act and to make 
some earnings on it and withdraw them tax-free to pay for the 
things, the everyday things, that individuals with disabilities 
need. That tax status does not currently exist within the 
special needs trust accounts that we have.
    Secondly, there are a lot of misconceptions about trusts. I 
think that individuals think that maybe they are only for the 
wealthy, which could not be further from the truth, but it 
prevents some families from taking action. They are worried 
about the costs; they are worried about the complexities. They 
look at this planning and see the equivalent of trying to eat 
an elephant in one sitting.
    Families are overwhelmed with what they have going on--PT, 
OT, IEP meetings, a day-to-day routine--and the longer-term 
planning piece takes a back seat because they see it as a very, 
very complex challenge.
    What I think would happen with the ABLE account is, because 
these accounts can be set up relatively easily, you are going 
to see a lot more families take action and take action now so 
that their child, down the road, or their loved one, down the 
road, is not at risk of losing their government benefits. 
Perhaps their son or daughter is going to be able to work and 
live and really contribute to society and make their own money, 
and now they will have that account that they can save into 
without worrying about eclipsing SSI limits.
    Senator Casey. Well, I am grateful for that. I know we will 
have to wrap up.
    Senator Enzi, do you have anything else to say?
    Senator Enzi. I would just make a final comment, and that 
is that we are on the verge of passing the autism 
reauthorization bill too. So I would appreciate any support you 
could give on that. I think we can get it done very shortly, 
and that will help in some way, hopefully, to find a solution.
    So I thank you for this hearing and particularly this 
testimony and the answers that we will get in the future.
    Senator Casey. Senator, thank you so much for your work.
    I want to thank each of our witnesses.
    The vote has started. We have a little bit of time, but we 
wanted to wrap up so that folks would not have to wait for an 
adjournment, and we can come back.
    But it is a good time to adjourn. We know why we need to do 
this. Now we just have to complete the race. I am not going to 
get into football analogies, red zone, but it is something like 
that. We are getting close.
    Just for the record, Senator Warner will submit a statement 
for the record. I want to make sure that that statement is 
incorporated into the record by consent.
    [The prepared statement of Senator Warner appears in the 
appendix.]
    Senator Casey. Once again, in addition to thanking the 
witnesses, the families, the advocates who are here, I also 
want to let Senators on the committee know that they can submit 
statements and questions for the record to the Senate Finance 
Committee in the next, I guess, 5 days. That is the usual limit 
for these.
    But we are grateful for the work that has been done. Let us 
go out and pass the ABLE Act.
    Thanks, everyone. We are adjourned.
    
    [Whereupon, at 11:09 a.m., the hearing was concluded.]
    
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC] [TIFF OMITTED]  
                             Communication

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC] [TIFF OMITTED] T


                                   [all]


</pre></body></html>
